*\

No. :

FILED
AUG 10 2020

In the

j^^rHECLER^

Supreme Court of the United States

REGINALD JONES
Petitioner,
v.
STATE OF LOUISIANA

Respondent.
Petition for A Writ of Certiorari
to the Louisiana Supreme Court

Reginald Jones
DOC #: 399320
Dixon Correctional Institution
Jackson, LA 70748-0788
Pro se

*Rickey Nelson Jones
Law Offices of Reverend
Rickey Nelson Jones, Esquire
3rd Floor - Suite 5
1701 Madison Avenue
Baltimore, Maryland 21217
410-462-5800

*Jamila Johnson
THE PROMISE OF JUSTICE
INITIATIVE
1024 Elysian Fields Ave.
New Orleans, LA 70117
j j ohnson@defendla.org
504-526-4252

*Providing Pro Bono Guidance to Inmate On WRIT

§msm

■<

1

l.

Question Presented
In light of this court's recent decision in Ramos
v. Louisiana, 140 S.Ct. 1390 (2020), finding nonunanimous jury verdicts in serious criminal cases
unconstitutional, is Petitioner entitled to be released
from prison when the State Prosecutor failed to prove
. he was "Guilty" of two felonies1 by a unanimous jury
verdict due to the State's failure to show defendant
ever used a firearm as defined by Louisiana Statute?

Actually, defendant was charged with three felonies due to the third being inextricably connected to the previous
two, i.e., obstruction ofjustice based on the 10-2 verdicts on the first two felonies charged.

'•

2

4,

LIST OF PITIES
Petitioner is an inmate in a Louisiana Prison in
Jackson, Louisiana.
The Respondent is the State of Louisiana.

*■

3

i/

TABLE OF CONTENTS
QUESTION PRESENTED.

1

LIST OF PARTIES

2

TABLE OF CONTENTS

3

TABLE OF APPENDICES

4

TABLE OF AUTHORITIES

5

OPINION BELOW

5

STATEMENT OF JURISDICTION

6

CONSTITUTIONAL PROVISIONS INVOLVED,

6

STATEMENT OF THE CASE

7

REASONS FOR ALLOWANCE OF THE WRIT

9

I.

Ramos v. Louisiana's Holding
Is Applicable Herein

II.

9

Two Jurors Correctly Recognized
The Error of the Ten Jurors'
Finding of "Guilty"

11

4

« *-

TABLE OF APPENDICES
Appendix A - Opinion of Court of Appeal,
Fourth Circuit, State of Louisiana
Appendix B - Trial Court Decision/Jury Verdict Form
Appendix C - Louisiana Supreme Court's
Denial of Writ Application
Appendix D - Petitioner's Application for
Writ of Certiorari Before the
Louisiana Supreme Court,
Referencing the 10-2 Jury
Verdict's Support of His
Innocence [footnote #1]2

2 This was 100% consistent with Petitioner’s “Specification of Errors” #1, in his Brief to the Court ofAppeal, Fourth
Circuit, State of Louisiana, about the Trial Court making an error in denying his “Motion for Post-Verdict
Judgment of Acquittal, which referenced in its “Constitutional Analysis” that convicting him violated Due
Process (meaning specifically and generally).

5
TABLE OF AUTHORITIES
Ramos v. Louisiana, 140 S.Ct. 1390 (2020)
Jackson v. Virginia, 443 U.S. 307, 99 S.Ct. 2781,
61 K,/ed,2d 560 (1979)
Mullaney v. Wilbur, 421 U.S. 684, 95 S.Ct. 1881, 44
L.Ed.2d 508 (1975)
Ivan V. v. City of New York, 407 U.S. 203, 92 S.Ct.
1951, 32 L.Ed.2 659 (1972)
Lego v., Twomey, 404 U.S. 477, 92 S.Ct. 619, 30 L.Ed.2d
618 (1972)
In re Winship, 397 U.S. 358, 90 S.Ct. 1068, 25 L.Ed.2d
368 (1970)
OPINION BELOW
The [1] Opinion of the Court of Appeal, Fourth Circuit,
State of Louisiana and [2] Denial of Petitioner's Writ
by the Louisiana Supreme Court have not been published.
Presently, they are cited as
STATE OF LOUISIANA VERSES REGINALD JONES, NO. 2018-KA0973
STATE OF LOUISIANA V. REGINALD JONES, Supreme Court of

v

6

4

Louisiana, 3/16/20, No. 2019-K-00533
STATEMENT OF JURISDICTION
The Louisiana Supreme Court is the highest court in
the State of Louisiana.

Its March 16, 2020 denial of

Petitioner's Application for a Writ of Certiorari
upheld the lower courts' support of Petitioner "Guilty"
Verdict.

Hence, the basis of jurisdiction is 28 U.S.C.

Sec. 1257.
CONSTITITUIONAL PROVISIONS INVOLVED
The following Amendments to the United States
Constitution are applicable herein (in pertinent part):
Fifth ("nor shall any person be subject for the same
offence to be twice put in jeopardy of life or limb;

.

. . nor be deprived of life, liberty, or property,
without due process of law...."), Sixth ("In all criminal
prosecutions, the accused shall enjoy the right to a
speedy and public trial, by an impartial jury...") , and
Fourteenth ("All persons born or naturalized in the
United States, and subject to the jurisdiction thereof,
are citizens of the United States and of the state

7
where they reside.

No state shall make or enforce any

law which shall . .

. deprive any person of life,

liberty, or property, without due process of law;").
Article I, Section 17 of the Louisiana
Constitution, which permits non-unanimous jury verdicts
is also applicable herein.

It states in pertinent part

as follows, "A case in which the punishment is
necessarily confinement at hard labor shall be tried
before a jury of twelve persons, ten of whom must
concur to render a verdict."
STATEMENT OF THE CASE
On November 9, 2017, the State and Defense
stipulated that there was NO Probable Cause in the case
(the criminal court found likewise). Nonetheless,
defendant was offered a plea on the day before his
Trial.

After the public defender urged him to accept

the plea one day before Trial, he did.

However, he

requested that the Criminal District Court permit him
to withdraw his plea due to the poor preparation of his
counsel.

On March 15, 2018, a hearing was conducted

8
and the court found the public defender unprepared for
Trial and granted defendant's request.

In response,

the State.aggressively tried the defendant, and he was
found "Guilty" by a non-unanimous jury (10 to 2) of
three crimes/felonies, namely, Aggravated Assault With
A Firearm (La. R.S. 14:37.4), Possession of a Firearm
or Concealed Weapon by a Felon (Ls. R.S. 14:95.1), and
Obstruction of Justice (La. R.S. 14:130.1).

Defendant

filed a Motion for Post-Verdict Judgment of Acquittal"
on April 24, 2018 (citing a violation of Due Process in
« its "Constitutional Analysis" section), and it was
Denied.

Defendant was sentenced to 10 years

imprisonment on May 4, 2018.

Five days later,

defendant filed a Motion for Appeal, which was not
signed within the law-mandated 72 hours.

The State

proceeded with a Habitual Offender (La. R.S. 15:529.1)
Hearing on August 2, 2018, and defendant was convicted
and sentenced to 20 years imprisonment.

The Court

signed defendant's Motion for Appeal on August 6, 2018
and denied his Motion to Reconsider Sentence.

On

9
October 6, 2018, defendant filed his Original Brief
with the Louisiana Court of Appeal, Fourth Circuit.

On

February 27, 2019, the Court of Appeal "Affirmed" the
Criminal District Court of Orleans Parish.

On March 7,

2019, defendant filed his Application for Rehearing.
On March 15, 2019, the Court of Appeal "Denied" the
Application for Rehearing.

On March 29, 2019,

Petitioner filed his Application for a Writ of
Certiorari and referenced the non-unanimous jury
verdict as support for his acquittal.

On March 16,

2020, the Louisiana Supreme Court Denied Petitioner's
Writ Application.
REASONS FOR ALLOWANCE OF WRIT
[I]
In Ramos v. Louisiana, 140 S.Ct. 1390 (2020), this
court held that Louisiana and Oregon's laws permitting
non-unanimous jury verdicts in serious criminal trials
are unconstitutional.

The Sixth Amendment's term

"trial by an impartial jury trial" means a jury must
reach a unanimous verdict in order to convict in state

10
and federal trials equally; common law, early state
constitutions, post-adoption treatises, and years of
decisions by the U.S. Supreme Court support the fact
that the Sixth Amendment requires unanimity in serious
criminal trials and such applies to the states by
incorporation via the Fourteenth Amendment.
Petitioner was found "Guilty" by a non-unanimous
jury (10 to 2) of three felonies, namely, Aggravated
Assault With A Firearm (La. R.S. 14:37.4), Possession
of a Firearm or Concealed Weapon by a Felon (Ls. R.S.
14:95.1), and Obstruction of Justice (La. R.S.
14:130.1).

Two jurors agreed with Petitioner that he

did not use a firearm to scare his neighbor, as a
firearm is defined by Louisiana Statute (La. R.S.
14:37) .

The statute defines a firearm as follows: "An

instrument used in the propulsion of shot, shell, or
bullets by the action of gunpowder exploding within
it. "

Because [1] the neighbor Petitioner sought to

scare gave a sworn, notarized, Affidavit that a water

11
pistol was used and no firearms were involved,3 [2] no
firearm was recovered by the police,

[3] the video only

showed a black object in Petitioner's hand, and [4] the
prosecution made a decision to not offer a weapons'
expert to identify the black object on the video, two
jurors recognized that a "Guilty" verdict was not
possible and voted against conviction.
[II]
Evidence of a firearm, as defined by statute, was
an indispensable element of the crimes with which
Petitioner was charged, and failing to prove this
rendered conviction a violation of due process.

Two

jurors recognized the fundamental principle of criminal
procedure, namely, "The Due Process Clause of the
Fourteenth Amendment protects a defendant in a criminal
case against conviction except upon proof beyond a
reasonable doubt of every fact necessary to constitute
the crime with which he is charged." Jackson v.
3 Critically important is that after the Prosecution, during its direct examination, “referenced” the neighbor getting
in trouble by testifying in support of his sworn affidavit, the neighbor testified inconsistent with his affidavit,
obviously concerned about being charged with peijury if he did not support the Prosecution’s case.

12
.

Virginia, 443 U.S. 307, 315, 99 S. Ct. 2781, 61 L.Ed.2d
560 (1979); In re Winship, 397 U.S. 358, 90 S.Ct. 1068,
25 L.Ed.2d 368 (1970); Ivan V. v. City of New York, 407
U.S. 203, 92 S.Ct. 1951, 32 L.Ed.2 659 (1972); Lego v.
Twomey, 404 U.S. 477, 92 S.Ct. 619, 30 L.Ed.2d 618
(1972); Mullaney v. Wilbur, 421 U.S. 684, 95 S.Ct.
1881, 44 L.Ed.2d 508 (1975).

Petitioner's criminal

jury trial worked as the Framers of our Constitution
intended, and if not for Louisiana's shameful racial
history and unconstitutional jury-verdict law,
Petitioner would not be sitting in prison, now
exceeding two years.

As the Ramos Court observed,

state interests in final judgments "cannot outweigh the
interest we all share in the preservation of our
constitutionally promised liberties."
at 25.

Ramos, 590 U.S.

Petitioner explicitly made reference to a non-

unanimous verdict in his Writ before the Louisiana
Supreme Court and explicitly referenced being denied
due process in his Brief before the Court of Appeals,
Fourth Circuit, State of Louisiana.

He even has a

13
motion for re-hearing pending before the Louisiana
Supreme Court in light of the Ramos Decision.

However,

due to that court's discretion in responding, this Writ
of Certiorari is filed' to not miss the deadline for
filing.

However viewed, Petitioner has taken all steps

to secure his Sixth and Fourteenth Amendments rights
and re-cover his wrongfully taken liberty.
CONCLUSION
Due to this court's decision in Ramos, Petitioner
respectfully request that this court grant his Writ of
Certiorari OR ALTERNATIVELY (and preferably), Order his
immediate release from prison

Janes

Date

Pro Be.

*Rickey Nelson Jones
Law Offices of Reverend
Rickey Nelson Jones, Esquire
3rd Floor - Suite 5
1701 Madison Avenue
Baltimore, Maryland 21217
Joneses003@msn.com
410-462-5800

*Jamila Johnson
THE PROMISE OF JUSTIVE
INITIATIVE
1024 Elysian Fields Ave.
New Orleans, LA 70117
j j ohnson@defendla.org
504-526-4252

*Providing Pro Bono Guidance to Inmate On WRIT

